Bridget R. Robinson

brobinson@wabsa.com
(512) 454-6864

Board Certified Civil Trial Law
Texas Board of Legal Specialization

April 20, 2021

Via e-filing

Mr. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

William V. and Jenny V., Petitioners v. Copperas Cove Independent
School District, Respondent; Case No. 20-1377; Supreme Court of
the United States

Dear Mr. Harris:
In connection with the referenced case, Respondent Copperas Cove Independent School
District respectfully requests a 30-day extension to respond to Petitioners’ Petition for a Writ of
Certiorari. A 30 day extension would extend the deadline for Respondent’s Opposition Brief from
May 3, 2021 to June 2, 2021. The extension is requested due to difficulties related to the ongoing
Covid-19 pandemic, including but not limited to the continued closure of all the law firm’s offices
and additional operating challenges, as well as other obligations.
I conferred via email with Petitioners’ attorney, Andrew K. Cuddy, who stated Petitioners
are not opposed to Respondent’s requested extension.
If you have any questions, please do not hesitate to contact me at your convenience by phone
at 1-800-252-3405 or via email at brobinson@wabsa.com.
Very truly yours,

Bridget Robinson
BRR/bw

Centennial Towers, 505 E. Huntland Dr., Suite 600, Austin, Texas 78752  MAIL: P.O. Box 2156, Austin, Texas 78768

T: 512.454.6864  F: 512.467.9318  www.WalshGallegos.com

April 20, 2021
Page 2

cc:

Andrew K. Cuddy (via e-filing)
The Cuddy Law Firm, PLLC

